June 25, 2020
Honorable Scott S. Harris, Clerk of the Court
Supreme Court of the United States
One First Street NE
Washington, DC 20543-001
RE: Richard Jordan and Ricky Chase v. Georgia Department of
Corrections
Case No. 19-1361
Dear Mr. Harris:
Respondent Georgia Department of Corrections respectfully requests an
extension of time to respond to the petition for a writ of certiorari docketed on June
11, 2020. The response to the petition for a writ of certiorari is currently due on July
13, 2020. Respondent requests a 30-day extension to and including August 12, 2020.
The extension is requested due to the press of other matters, including another brief
in opposition to certiorari due in this Court and multiple briefs due in Georgia
appellate courts as well as other preexisting professional and personal
commitments.
Sincerely,
/s/Andrew A. Pinson
Andrew A. Pinson
Solicitor General, State of Georgia
cc:

Amir H. Ali
Counsel for Petitioners

